        Report No. D-2010-041                                 February 5, 2010




           Acquisition Decision Memorandum
      for the Defense Integrated Military Human
                    Resources System



                                      SPECIAL WARNING
 This report contains DoD Planning, Programming, and Budget System information that may not be
disclosed outside DoD and other governmental agencies directly involved in the Defense planning and
 resources allocation process without the consent of the Office of the Secretary of Defense. You must
         safeguard this document in accordance with Appendix 3, DoD Regulation 5200.1-R.

                                      Warning
“The enclosed document(s) is (are) the property of the Department of Defense, Office
of Inspector General. Release or disclosure of the contents is prohibited by DOD
Directive 5106.1. Contents may be disclosed only to persons whose official duties
require access hereto. Contents cannot be released outside the Defense Department
without the approval of the Department of Defense, Office of Inspector General.”
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ADM                           Acquisition Decision Memorandum
BCA                           Business Case Analysis
BTA                           Business Transformation Agency
COA                           Course(s) of Action
DBSMC                         Defense Business Systems Management Committee
DFAS                          Defense Finance and Accounting Service
DIMHRS                        Defense Integrated Military Human Resources System
ERAM                          Enterprise Risk Assessment Methodology
IRB                           Investment Review Board
IT                            Information Technology
MAIS                          Major Automated Information System
MCTFS                         Marine Corps Total Force System
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                                 and Logistics




                               FOR OFFICIAL USE ONLY

                                    INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON , VIRGIN IA 22202-4704 





                                                                           5 February 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS

SUBJECT: Acquisition Decision Memorandum for the Defense Integrated Military Human
         Resources System (Report No. D-20 10-041)

We are providing this report for review and comment. We considered management conunents on
a draft of this report when preparing the final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. The comments
from the Director, Acquisition Resources and Analysis were not responsive. Accordingly, we
request the Under Secretary of Defense for Acquisition, Teclmology, and Logistics to respond to
the recommendation by March 8, 20 I O.

Ifpossible, please send a .pdffile containing your comments to auddbo@dodig.mil. Copies of
management conunents must contain the actual signature of the authorizing official. We are
unable to accept the ISignedl symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions about this report to me
at (703) 604-8900 (DSN 664-8900).
FOR OFFICIAL USE ONLY

Report No. D-2010-041 (Project No. D-2009-D000FB-0082.000)         February 5, 2010


               Results in Brief: Acquisition Decision
               Memorandum for the Defense Integrated
               Military Human Resources System

What We Did                                        What We Found 

Our objectives for the audit were to determine     The USD(AT&L) made a decision before the
whether the Defense Business Systems               lifecycle costs associated with each alternative
Management Committee and Investment                had been determined. Although the decision
Review Boards coordinated business system          stated that cost differences were not the
modernization initiatives to eliminate conflicts   determining factors in selecting the best course
and duplication of effort and ensured proper       forward, cost estimates rose from $1.7 billion in
allocation of funds. This report on the Defense    December 2008 to an estimated $16.1 billion for
Integrated Military Human Resources System         the alternative selected in September 2009. The
(DIMHRS) is the first in a series on the           draft BCA did not detail or fairly represent the
Investment Review Board process.                   specific variable costs associated with the
                                                   various alternatives. In addition, the selection
Since 2003, DOD has spent about $800 million       of Service-level integrated personnel and pay
developing DIMHRS. In April 2009, because          systems may increase governance risk and
of schedule delays and the results of system       overall technical complexity of DIMHRS for
acceptance testing, the Under Secretary of         DOD. Without a complete analysis of all
Defense for Acquisition, Technology, and           alternatives, DOD may incur excessive costs
Logistics (USD[AT&L]) outlined four options        and still not achieve the intent of the DIMHRS
for the future development of DIMHRS in an         initiative, which was “a single integrated
Acquisition Decision Memorandum (ADM).             military personnel and pay system.”
Under Option 1, DOD would develop DIMHRS
as originally planned—a single integrated          What We Recommend
military personnel and pay system. The other       We recommended that USD(AT&L) reconsider
three options required the development of four     the decision on DIMHRS after the BCA Team
systems (one for DOD data and one each for the     prepares a thorough, complete, and objective
Army, Air Force, and Navy). The April ADM          BCA that has been independently verified and
required the Director, Acquisition Resources       consider cost as a key factor.
and Analysis to lead a team to develop a
Business Case Analysis (BCA).
                                                   Management Comments and
On September 8, 2009, the USD(AT&L) signed         Our Response
another ADM (see Appendix B) and selected          USD(AT&L) disagreed with the recommen-
the option that would allow the Army, Navy,        dation and stated that the decision to move
and Air Force to develop separate systems and      forward was based on governance risk, technical
for the Marine Corps to continue using the         complexity, technical risk, and past performance
Marine Corps Total Force System. We                and that cost was not a determining factor in his
analyzed the ADMs and lifecycle cost               decision. The comments were not responsive
information in the June 24, 2009, draft BCA.       and we request comments to the final report.
                                                   Please see the recommendation table on the
                                                   back of this page.

                                      FOR OFFICIAL USE ONLY

Report No. D-2010-041 (Project No. D-2009-D000FB-0082.000)         February 5, 2010



Recommendations Table 


 Management                                    Recommendations           No Additional Comments
                                               Requiring Comment         Required
 Under Secretary of Defense for Acquisition,   All                       None
   Technology, and Logistics


Please provide comments by March 8, 2010.




                              FOR OFFICIAL USE ONLY

Table of Contents


Introduction

      Objectives                                                      1
      Background                                                      1
      Review of Internal Controls                                     5

Finding. Acquisition Decision Memorandum for the Defense Integrated
Military Human Resources System                                        6

      Management Comments on the Finding and Our Response             12
      Recommendation, Management Comments, and Our Response           14

Appendices

      A. Scope and Methodology                                        18
            Prior Coverage                                            19
      B. Acquisition Decision Memorandum, September 8, 2009           20
      C. Deputy Secretary of Defense Memorandum, January 16, 2009     25

Glossary                                                              28

Management Comments

      Director, Acquisition Resources and Analysis                    30




                            FOR OFFICIAL USE ONLY

FOR OFFICIAL USE ONLY

Introduction
Objectives
This report is the first in a series on the Investment Review Board process. We
conducted this audit in conjunction with our on-going audit of the DOD Investment
Review Process (DOD IG Project No. D2009-D000FB-0082.000). Our objectives for the
audit were to determine whether the Defense Business Systems Management Committee
(DBSMC) and Investment Review Boards (IRBs) coordinated on Defense business
systems modernization initiatives to eliminate conflicts and duplication of effort and
ensured proper allocation of appropriated funds. However, during the audit, we
identified deficiencies in an ongoing Business Case Analysis1 (BCA) for the Defense
Integrated Military Human Resource System (DIMHRS) that needed immediate elevation
and resolution to ensure DOD decision-makers had sufficient information for deciding
the future of DIMHRS. (See Appendix A for a discussion of the scope and
methodology.)

Background
Public Law 105-262, “Department of Defense Appropriations Act of 1999,” October 17,
1998, Section 8147, directed DOD to develop and implement:

                 …information systems in support of manpower and personnel to
                 include an enterprise level strategic approach, performance and results
                 based management, business process improvement and other non-
                 material solutions, the use of commercial or government off the-shelf
                 technology, the use of modular contracting as defined by Public Law
                 104–106, and the integration and consolidation of existing manpower
                 and personnel information systems.

In July 2001, the Director, Joint Requirements and Integration Office, completed the
Operational Requirements Document that anticipated initial operational capability for
DIMHRS by 2003. In September 2003, DOD awarded Northrop Grumman a 9-year,
$281 million contract to develop DIMHRS. The Under Secretary of Defense for
Personnel and Readiness had primary responsibility for the contract and worked with the
Navy on system requirements. The contract included delivery of a personnel and pay
database. Since 2003, DOD has spent approximately $800 million on developing
DIMHRS.




1
 A Business Case Analysis provides a best-value analysis that considers not only cost, but also other
quantifiable and non-quantifiable factors supporting an investment decision. See the Glossary for the
definition of this and other technical terms.

                                              1

                                    FOR OFFICIAL USE ONLY

Public Law 108-375, “Ronald W. Reagan National Defense Authorization Act for Fiscal
Year 2005,” October 28, 2004, Section 332, established the DBSMC to oversee
transformation in the Business Mission Area. The overall goal of the DBSMC is to
ensure that the Business Mission Area meets the needs and priorities of the Warfighting
Mission Area. The IRBs are the authoritative bodies that review, recommend, and certify
the investment priorities to the DBSMC for all Defense business systems related to
financial management, human resource management, real property lifecycle installation
management, and Weapons and Materials. The DBSMC is the final approval authority
for DOD investments in the Business Mission Area.

In October 2005, the Deputy Secretary of Defense established the Business
Transformation Agency (BTA), and, in December 2005, BTA assumed control over the
DIMHRS acquisition process. The Under Secretary of Defense for Personnel and
Readiness retained responsibility for the DIMHRS enterprise requirements and the
Human Resources Management Investment Review Board process.

The September 2008 Enterprise Transition Plan (a BTA product) provides this
description of DIMHRS and its intended purpose:

              DIMHRS is the vehicle through which Department of Defense is
              revolutionizing military personnel and pay to support the 21st century
              warfighter. DIMHRS will be a fully integrated personnel and pay
              system for the Department that will support military personnel
              throughout their careers and retirement. It will consolidate nearly a
              hundred legacy DoD personnel support systems and provide a common
              military Human Resource (HR) and pay system for the Department
              using standardized business processes that generate data in a singular
              operating environment. This consolidation will result in greater
              standardization of data between Components, increased accuracy and
              timeliness of pay actions and will provide greater visibility of all
              military personnel. DIMHRS provides a single system of record
              encompassing most facets of a military career--supporting personnel
              and pay functions for Regular, Reserve and Guard personnel (and their
              families), whether on active duty or not, throughout their entire military
              careers through periods of peacetime, mobilization and war—
              regardless of movement between Components…one system, one
              record.

In November 2008, the Deputy Secretary of Defense directed a program review to gain a
comprehensive understanding on the status of DIMHRS. Accordingly, BTA conducted
an Enterprise Risk Assessment Methodology (ERAM) in November 2008 and gave the
assessment to the DIMHRS program manager. The ERAM results showed that
functional oversight over the development of DIMHRS was ineffective and that the
DIMHRS program lacked disciplined processes that included issue resolution,
decision-making, and communication. In December 2008, BTA briefed senior leadership
and indicated that the DIMHRS’ initial operational capability would be delayed by more
than one year.




                                           2

                                 FOR OFFICIAL USE ONLY

                  Option 1. A single, integrated, personnel and pay system, utilizing the
                  DIMHRS Information Technology (IT)2 investment to the maximum
                  extent practical, centrally developed, implemented and maintained by
                  an enterprise level office.

                  Option 2. Integrated personnel and pay system for each Service,
                  utilizing the DIMHRS IT investment to the maximum extent practical,
                  developed, implemented, and maintained by an enterprise level office.

                  Option 3. Integrated personnel and pay system for each Service,
                  utilizing the DIMHRS IT investment to the maximum extent practical,
                  developed, implemented, and maintained by the Service program
                  office.

                  Option 4. Integrated personnel and pay systems for each Service,
                  utilizing the DIMHRS IT investment to the maximum extent practical,
                  developed, implemented and maintained by Service program offices
                  after completion of full testing of DIMHRS Core IT Investment
                  software.

On June 24, 2009, the BCA team issued a draft BCA, as required by the April ADM.
The draft BCA focused on cost and schedule estimates, risk, benefits, and technical
characteristics of each course of action (COA). It provided high-level descriptions of the
COAs and discussed lifecycle costs associated with development, implementation, and
sustainment for a 20-year period. The draft BCA included an assumption that all
3,209 specifications and 39 interfaces (Common Core) would be developed by
September 30, 2009, and it included limited plans for unit and Common Core completion
testing. The BCA further divided Option 3 into three separate courses of action (COAs).3

    	 COA 3A: The draft BCA defined COA 3A as Service-specific versions of
       PeopleSoft based on the DIMHRS Core IT Investment.

    	 COA 3B: The draft BCA defined COA 3B as Army, Navy, and Air Force
       versions of PeopleSoft based on DIMHRS Core IT Investment. The Marine
       Corps would continue to use the MCTFS.

    	 COA 3C: The draft BCA defined COA 3C as Service-specific solutions informed
       by DIMHRS Core IT Investment. Essentially, COA 3C would allow all Services
       to develop new systems from “scratch.”

The April ADM required that the BCA team complete its analysis and provide the results
to the USD(AT&L) by June 30, 2009. It also authorized the Enterprise Program




2
  DIMHRS Core IT Investment is the “core” set of Common data and process elements (Common Core) 

that are required to achieve timely and accurate military pay. The Core includes 3,209 specifications and 

39 interfaces. 

3
  The draft BCA refers to the ADM “options” as “COAs.” 


                                               4

                                     FOR OFFICIAL USE ONLY

Management Office to obligate up to $40 million from the date of the ADM
(April 7, 2009) through September 30, 2009, without further approval from the
USD(AT&L).

On September 8, 2009, the USD(AT&L) signed an ADM (September ADM) and
selected the option (COA 3C) that would allow the Army, Navy, and Air Force to
develop separate systems and for the Marine Corps to continue using the MCTFS
(see Appendix B).

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, require DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. Our audit of the Investment
Review Board process is ongoing. We will include internal control weaknesses
associated with DIMHRS project management when we complete our fieldwork for the
audit.




                                        5

                              FOR OFFICIAL USE ONLY

Finding. Acquisition Decision Memorandum
for the Defense Integrated Military Human
Resources System
The Acquisition Decision Memorandum that the USD(AT&L) signed on
September 8, 2009, for the future of DIMHRS was premature. The September ADM was
premature because the BCA was not complete and the draft BCA did not:

      explain why estimated lifecycle costs increased so significantly from lifecycle
       estimates previously submitted to Congress,
      detail or fairly represent the variable costs associated with the various alternatives,
      clearly define what the Common Core consisted of, and did not explain what
       Northrop Grumman would deliver to the Services on September 30, 2009.

Without a complete analysis of all alternatives, DOD may incur excessive costs and still
not achieve the intent of the DIMHRS initiative, which was “a single integrated military
personnel and pay system.” In addition, the selection of Service-specific integrated
personnel and pay systems (COA 3C), as stated in the September ADM, may increase
governance risk and overall technical complexity of DIMHRS for DOD.

Acquisition Decision Memorandum
The Acquisition Decision Memorandum that the USD(AT&L) signed on
September 8, 2009, for DIMHRS’ future was premature. USD(AT&L) made a
decision before the lifecycle costs associated with each alternative had been finalized.
On August 3, 2009, we shared a preliminary report draft, for discussion purposes, with
USD(AT&L) about of the decision options for DIMHRS; on August 26, 2009, we
discussed our concerns with the Director, Acquisition Resources and Analysis. The
Director stated that the new ADM had been drafted (signed September 8, 2009) and that
the decision would be based on issues other than cost. The Director added that the costs
associated with the alternatives were still being analyzed and finalized. Although the
September ADM stated that cost differences were not the determining factor in selecting
the best course forward, the selected alternative was 820 percent higher than the previous
estimate on DIMHRS lifecycle costs that USD(AT&L) submitted to Congress in
December 2008. Estimated costs rose from $1.7 billion in December 2008 to an
estimated $16.1 billion for the selected alternative. DOD funds are finite and the
magnitude of growth in estimated costs (820 percent) warrants cost as a key
consideration.

Life Cycle Cost Estimates
The draft BCA did not explain why estimated lifecycle costs increased so significantly
from lifecycle estimates previously submitted to Congress. The lifecycle costs
USD(AT&L) reported in the annual Major Automated Information Systems (MAIS)
report varied significantly from the costs presented in the draft BCA 6 months later.

                                         6

                               FOR OFFICIAL USE ONLY

Section 2445b, title 10, United States Code requires the Secretary of Defense to submit
an annual MAIS report as a budget justification document regarding cost, schedule, and
performance for each MAIS program. DIMHRS is a MAIS program because its total
lifecycle costs are estimated to exceed $378 million in FY 2000 constant dollars—
including operation and maintenance costs. USD(AT&L) submitted the MAIS report to
Congress in December 2008. The estimated lifecycle costs for all the COAs in the draft
BCA, June 2009, were significantly higher than those reported in historical MAIS
submissions:

                                      Table 2. Lifecycle Costs
                                            ($ millions)

    (1)             (2)             (3)            (4)               (5)              Percent of Increase
Alternative     Total Cost        DFAS           Legacy        Total Lifecycle       from December 2008
                     of         Operational      System        Cost for each            MAIS Report to
                Alternative       Costs           Costs         Alternative1         Congress2 and June
                                                                  (2)-(3)-(4)           2009 Draft BCA
COA 1               $28,890             $706       $1,518               $26,666                      1,542%
COA 2                25,049               706       1,173                 23,170                      1,340
COA 3a               25,639               706       1,173                 23,760                      1,374
COA 3b               16,051               706       1,173                 14,172                        820
COA 3c               16,051               706       1,173                 14,172                        820
COA 4                25,708               706       1,173                 23,829                      1,378
Source for Columns 1 through 5: Draft BCA
1
 We removed DFAS Operational Costs and Legacy System Costs from the costs identified in the draft BCA
because they were not associated with DIMHRS lifecycle costs.
2
 The December 2008 MAIS Report to Congress reported $1,783.5 million in lifecycle costs for DIMHRS. We
divided the lifecycle costs reported in the MAIS report by the total lifecycle costs for each alternative and
multiplied the result by 100 to arrive at the percentage increase shown in the table.


Neither the draft BCA nor the September ADM addressed the significant discrepancy
between previous lifecycle estimates and those proposed in the draft BCA.

Section 2445c, title 10, United States Code, requires DOD to notify Congress when
estimated lifecycle costs exceed 25 percent of its baseline estimates. Consequently, DOD
has 60 days from the September 8, 2009, ADM (to November 7, 2009) to notify Congress
that its estimates for DIMHRS have increased 820 percent and more from its December
2008 MAIS report (from $1.7 billion to $16.1 billion). Prior to the September 8 ADM
decision by USD(AT&L), the Comptroller issued a letter to congressional leaders on
August 31, 2009, requesting a redistribution of $78.8 million. The letter stated that
beginning in October, BTA would transition the DIMHRS Core IT capabilities to the
Services who would stand up a program office for overseeing, building, and deploying
the required personnel and pay capabilities. Consequently, the $78.8 million would not
be needed to fund DIMHRS. However, the letter did not provide any information about
the cost impact of such a decision.


                                               7

                                     FOR OFFICIAL USE ONLY

Variable Costs
The draft BCA did not detail or fairly represent costs associated with DFAS operational
costs, data warehousing costs, hardware costs, or software licensing costs.

DFAS Operational Costs
The draft BCA did not detail or fairly represent the variable costs associated with
maintaining the “nearly 100” legacy systems that DIMHRS was to replace until DIMHRS
is fully implemented (according to the September 2008 Enterprise Transition Plan). The
draft BCA stated that DFAS would consistently incur $706 million in costs to maintain
these legacy systems for each alternative. However, the draft BCA is inaccurate because
DFAS costs will vary for each COA because of the different estimated completion dates.
For example, the draft BCA shows completion dates in FY 2017 for COAs 3B and 3C,
but COAs 1 and 2 show completions in FY 2024 (7 years longer). With the difference in
the timeframes for implementing the COAs, there would be a variance in DFAS
operational costs. In addition, COAs 3A, 3B, 3C, and 4 will require DFAS to develop
and maintain interfaces with four different pay systems operated by four different
organizations instead of one, and its operational costs would permanently increase.

Data Warehousing Costs
The draft BCA did not detail or fairly represent the variable costs associated with
building and maintaining data warehouses. A data warehouse is a crucial piece of the
DIMHRS system because it would maintain DOD-wide data for supporting personnel
and pay functions. The draft BCA did not determine who would be responsible for
maintaining or funding data warehouses.

Although the draft BCA included limited discussion on data warehousing costs, details
on those were not enough for a clear assessment for each of the COAs. The draft BCA
included only high-level costs for each of the COAs and did not detail requirements for
building and maintaining data warehouses. For example, it stated that DOD would need
$56 million for hardware and software to build a single data warehouse under COA 1.
However, COAs 2, 3A, 3B, 3C, and 4 would require at least $56 million for each data
warehouse, with an approximate total cost of $280 million for five separate warehouses
(one for the DOD-wide warehouse and one for each of the four Services).

Personnel costs associated with maintaining the data warehouses also vary among the
COAs. According to the draft BCA, 42 personnel would be required to maintain one data
warehouse at an annual cost of about $9 million per year. We determined that COAs 2,
3A, 3B, 3C, and 4 would each require an additional 168 personnel to maintain the
additional four data warehouses at an additional annual cost of $36 million. Developing
and maintaining the data warehouses and obtaining additional support staff may result in
higher expenses.




                                        8

                              FOR OFFICIAL USE ONLY

Hardware Costs
The draft BCA did not detail or fairly represent the variable costs associated with
periodic hardware replacement. The draft BCA estimated hardware was to be replaced
once every 5 years, but it did not estimate costs for leasing or purchasing new equipment.
The DIMHRS system engineers stated that the DIMHRS equipment was already 5 years
old. The system engineers also stated that the equipment leases would expire in 2010
with no contract extension. Hardware costs under COAs 2, 3A, 3B, 3C, and 4 could be
substantially higher for DOD because DOD would maintain four systems instead of the
single DOD-wide system as under COA 1.

Software Licensing
The draft BCA did not detail or fairly represent the variable costs associated with
software licensing. PeopleSoft is the commercial-off-the-shelf product that Northrop
Grumman used to develop DIMHRS. In August 2001, DOD paid PeopleSoft
Incorporated $48 million for an enterprise software license. The license covered all DOD
personnel who needed to use DIMHRS (DOD military personnel in all Services and their
Components, military retirees and survivor personnel, and DOD civilians who
administered DIMHRS). COA 1 is the only option that would not require changes to the
enterprise software license.

Based on the Services’ answers to senior leadership queries, if COAs 2, 3A, 3B, 3C, or 4
were selected, the Services planned divergent paths. The Army stated it planned to
continue working with Northrop Grumman; therefore, the Army would continue to use
PeopleSoft software. The Air Force stated it planned to request proposals for its
integrated personnel and pay system, and, therefore, may need a new software licensing
agreement. The Navy stated it had not determined its path for a pay system. In addition,
under COAs 2, 3A, 3B, 3C, and 4, each Service may require developmental licenses
depending on whether they would be using PeopleSoft or other software to develop
DIMHRS to their specifications. Software costs could be significantly higher under
COAs 2, 3A, 3B, 3C, and 4 because new agreements may need to be developed and
implemented.

Common Core
According to the draft BCA, all 3,209 “Core” specifications and the 39 interfaces would
be developed by September 30, 2009, and include plans for unit and Core completion
testing. However, the draft BCA did not clearly define what the Common Core consisted
of and did not explain what Northrop Grumman would actually deliver on
September 30, 2009. For example, the draft BCA states:

               It is critical to understand that these “Core” elements are not an
               operational capability and do not make up single integrated business
               processes that can be tested through rigorous integration but are instead
               independent discrete and marginally connected “chunks” of
               functionality that are not necessarily proven to work as fully integrated
               processes.



                                            9

                                  FOR OFFICIAL USE ONLY

The draft BCA did not describe the actual deliverables, such as minimum documentation,
configured PeopleSoft database tables, and data dictionaries. It stated only that the
Enterprise Program Management Office would “manage” the level of delivered
requirements and the amount of testing and documentation to be delivered. In addition,
system acceptance testing was a requirement in the contract with Northrop Grumman.
The draft BCA was not clear on whether the software delivered by Northrop Grumman in
September 2009 would be ready for the Enterprise Program Management Office to accept
in accordance with the contract terms.

On June 19, 2009, DIMHRS senior leadership queried the Services on what they
expected from the “Core” regarding its quality, sufficiency, and completeness (that is,
what Northrop Grumman would deliver). The Services’ expectations on what Northrop
Grumman would deliver varied significantly. For example:

    	 The Army expected that Northrop Grumman would complete and successfully
       test and pass all of the specifications and interfaces in the Common Core.
    	 The Navy also expected that Northrop Grumman would complete and
       successfully test and pass all of the specifications and interfaces in the Common
       Core. In addition, the Navy expected Northrop Grumman to deliver the
       documentation required to rebuild the development and unit test environment, the
       Common Core test scripts and scenarios, as well as the documentation that is part
       of the Common Core contract modification.
    	 The Air Force expected that it would receive everything that Northrop Grumman
       had developed as of September 2009, regardless of whether the Common Core
       was 100 percent complete, but it also wanted quality, accurate documentation so
       that it could effectively manage the investment.
    	 The Marine Corps stated that it was uncertain how it would use the Common
       Core because it did not have sufficient information about its functionality or
       documentation.
DIMHRS senior leadership also identified a need for updated system documentation such
as an interface control document, system design document, and database design
description to the same level of detail required in 2004 before BTA assumed control of
DIMHRS in 2005. Given the short timeframe for delivery, it is unclear whether Northrop
Grumman can deliver the detailed documentation by September 30, 2009.

BCA Impact
Without a complete analysis of all alternatives, DOD may incur excessive costs and still
not achieve the intent of the DIMHRS initiative, which was “a single integrated military
personnel and pay system.” In addition, the selection of Service-level integrated
personnel and pay systems (COA 3C) as stated in the September ADM may increase
governance risk and overall technical complexity of DIMHRS for DOD.



                                        10

                              FOR OFFICIAL USE ONLY

DIMHRS Costs and Deployment
DOD may incur excessive costs and still not achieve the intent of the DIMHRS initiative,
which was “a single integrated military personnel and pay system.” Although the draft
BCA provided estimated lifecycle costs of $28.9 billion for COA 1 and $16.1 billion for
COA 3C, the estimates were incomplete. A complete analysis may significantly change
the estimates for costs associated with each alternative. The primary costs of software
come from the upgrades and maintenance to keep the software running. The figure
shows the typical distribution of costs associated with a software-based procurement, as
the system moves through its lifecycle.

              Typical DOD Software Lifecycle Cost/Effort Distribution

           100%

            90%

            80%

            70%

            60%

            50%

            40%

            30%

            20%

            10%

             0%
            Requirem ents   Des ign      Initial Coding   Tes ting        S oftware
              Definition                                                M aintenanc e


                               Source: Defense Acquisition University

The draft BCA did not provide the costs factors associated with the different
alternatives in sufficient detail to explain why deploying one integrated system
(COA 1 at $28.9 billion) would cost 44 percent more than deploying four separate
systems (COA 3C at $16.1 billion).

Governance Risk and DIMHRS Complexity
The USD(AT&L) decision for Service-level integrated personnel and pay systems may
increase DOD governance risk. The September ADM stated that the capabilities DOD
needs are best met through Service-level use of the DIMHRS Core IT Investment to the
maximum extent practical. The September ADM acknowledged that Service-level
integrated personnel and pay systems were high risk. The draft BCA eliminated COA 1
because of the difficulty in defining and controlling requirements and in managing and
governing the centralized program. By allowing each Service to develop its own
personnel and pay system, DOD may increase its risk of developmental failure, interface
problems, and an increased number of disparate user requirements. With four separate

                                         11

                               FOR OFFICIAL USE ONLY

developmental efforts (DOD Warehouse, and separate Army, Navy and Air Force
systems), even more diligence would be required—by all organizations involved in the
management, use, design, development, maintenance, and operation of those systems—to
ensure that DOD-wide personnel, finance, and enterprise functional requirements, data,
and information standards are met.

The September ADM concluded that leveraging previous investments where appropriate,
and providing necessary flexibility and management control at the Military Department
level was the best approach. According to the September ADM, DOD will establish a
strong governance structure to oversee the Service efforts to ensure DOD-wide personnel,
finance, and accounting standards are met by the Service-level integrated personnel and
pay systems. The September ADM also stated that the governance structure established
for the DIMHRS Core IT Investment, including the O-8 and O-9 governance committees
would continue. However, these two governing bodies existed since the program’s
inception, and they did not ensure that the DIMHRS program had effective functional
oversight or disciplined processes that included issue resolution, decision-making, and
communication.

Risk management is integral to the success of enterprise governance because it integrates
best practices of planning and organizing, acquiring and implementing, delivering and
supporting, and monitoring IT performance to ensure that the enterprise’s information
and technology supports the enterprise’s business objectives. With the development of
separate Army, Navy, and Air Force Service-level personnel and pay systems and the
additional enterprise-level information warehouse, it is unclear whether DOD will be able
to mitigate its four-fold governance risk and DIMHRS complexity.

Management Comments on the Finding and Our
Response
Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
Although the recommendation was made to USD(AT&L), the Director, Acquisition
Resources and Analysis, provided the comments for USD(AT&L). The Director
included additional comments on the overall report. See the Management Comments
section for a complete text of the comments.

The additional comments stated that we did not consistently summarize the memorandum
issued by Deputy Secretary of Defense on January 16, 2009, on the enterprise-level
visibility led by DCMO [Deputy Chief Management Officer]. In addition, the comments
stated that the memorandum did not direct the Navy to develop a BCA, but that the
Military Services were to stand up program offices and develop their own personnel and
pay capabilities.




                                        12

                              FOR OFFICIAL USE ONLY

The additional comments also:

   	 reiterated that the details and rationale for each cost driver were provided in the
      draft BCA, cost factor estimates were based on historical DOD experience and on
      analogy, and that the estimates were made with the greatest level of fidelity;

   	 acknowledged that the selected alternative would have the highest probability of
      success considering the risk; and

   	 stated that the FY 2010 NDAA required the Secretary of Defense to establish a
      DIMHRS development and transition council that would provide advice to the
      Secretary of Defense and the Secretaries of the Military Services on modernizing
      the integrated pay and personnel systems, and collecting data into the enterprise
      information warehouse.

Our Response
We acknowledge the Director’s additional comments. We have included the full text of
the memorandum at Appendix C. The memorandum states that the Navy must comply
with the requirements of the Public Law 109-364, the FY 2007 National Defense
Authorization Act, section 324, October 16, 2006, that directed the Secretary of the Navy
to prepare a report on MCTFS that included:

   	 an analysis of alternatives with a comparison between the costs of deploying and
      operating MCTFS within the Navy and the cost of including the Navy in
      DIMHRS,

    	 an analysis of the compatibility of MCTFS with the DOD business enterprise
       architecture, and

    	 a business case analysis of the costs and benefits to the Navy and DOD.

The additional comments did not provide any supplementary details on why deploying
one integrated system (COA 1 at $28.9 billion) would cost 44 percent more than
deploying four separate systems (COA 3C at $16.1 billion). The additional comments
reiterate that Service-level integrated personnel and pay systems are high risk with a high
probability of success.

The requirement on establishing a DIMHRS development and transition council appears
redundant. As previously stated in the report, the September ADM stated that the
governance structure established for the DIMHRS Core IT Investment, including the O-8
and O-9 governance committees, would continue. However, these two governing bodies
existed since the program’s inception, and they did not ensure that the DIMHRS program
had effective functional oversight or disciplined processes that included issue resolution,
decision-making, and communication. The O-8 and O-9 committee members may be the
same members that would be providing the advice to the Secretaries and thus may not


                                          13

                                FOR OFFICIAL USE ONLY

provide the oversight needed on the modernization of the integrated pay and personnel
system for each department and the collection of data generated by each such system into
the enterprise information warehouse.

Recommendation, Management Comments, and Our
Responses
Revised Recommendation
We revised the draft recommendation by removing the requirement to notify Congress
within 60 days from September 8, 2009 (when the Acquisition Decision Memorandum
was signed) because the milestone occurred before our report was published.

We recommend that the Under Secretary of Defense for Acquisition, Technology,
and Logistics reconsider its decision on DIMHRS and:

   	 Develop a detailed Business Case Analysis that provides a complete
      explanation of the factors used that increased the estimated lifecycle costs in
      the draft Business Case Analysis from those previously reported in the
      December 2008 Major Automated Information System report.
   	 Notify Congress that DOD’s estimate for DIMHRS has increased at least
      820 percent from its December 2008 MAIS report (from $1.7 billion to
      $16.1 billion for the selected option) as required by section 2445c, title 10,
      United States Code.

Director, Acquisition Resources and Analysis Comments
The Director disagreed and stated that the draft BCA was not built on the same DIMHRS
program that was previously reported in the December 2008 MAIS report. In addition,
the program was restructured through the critical change process into the DIMHRS Core
IT Investment, which was defined from the common data and process elements in the
December 2008 DIMHRS program and the DOD Enterprise Inbound and Outbound
Interfaces. Further, the comments stated that the DIMHRS Core IT Investment program,
completed on September 30, 2009, provided the software foundation, to the maximum
extent practical, for building and deploying the required personnel and pay capabilities.

The Director reiterated that the DIMHRS program was restructured through the critical
change process described in her comment to the previous recommendation point. She
stated that capabilities to achieve timely and accurate military pay are included in the
draft BCA. In addition, the draft BCA is not final and that updating cost estimates would
be based on data from the Services due the end of November 2009. The Director stated
that the figures in the December 2008 MAIS report are not comparable to the draft BCA
because the programs are different. Further, congressional defense committees were
aware of the restructured DIMHRS program and that BTA and Military Service
representatives met with staffers from the House Armed Services Committee, Senate
Armed Services Committee, and the Senate Appropriations Committee-Defense in
September 2009, to outline the Way Ahead discussed in the September 8, 2009, ADM

                                        14

                              FOR OFFICIAL USE ONLY

and the redistribution of FY 2010 DIMHRS funding. The comments also stated that the
congressional defense committees were notified of these changes in letters sent in April
and September 2009. The Military Services will submit MAIS Annual Reports with
additional detail once their individual pay and personnel systems are established.

Our Response
We consider these comments non-responsive. Although the comments stated that the
draft BCA was not built on the same DIMHRS program previously reported in the
December 2008 MAIS report, the BCA did include a cost analysis of COA 1. The draft
BCA stated that COA 1 was defined as a continuation of the current DIMHRS single
global instance of the PeopleSoft product to be used by all Services based upon the
output of the DIMHRS Core IT Investment effort. The December 2008 MAIS Report
included the description of DIMHRS as a single integrated system as described in the
draft BCA. Further, the DIMHRS MAIS baseline report for December 2007 also showed
$1.7 billion for total lifecycle cost. The comments did not provide any additional
information on the factors used that increased the estimated lifecycle costs in the draft
BCA to $16.1 billion from those previously reported in the MAIS reports as $1.7 billion.

The April 7, 2009, letters to congressional leaders stipulated a change in schedule for the
DIMHRS program and do not address any increase in lifecycle cost. In addition, the
August 31, 2009, letter from the Under Secretary of Defense (Comptroller)/Chief
Financial Officer to congressional leaders requested a redistribution of $78.8 million
from BTA to the Military Services for overseeing, building, and deploying the required
personnel and pay capabilities. However, neither of these letters to congressional leaders
specifically address the previously reported cost increase from $1.7 billion in the
December 2008 MAIS report to a potential $16.1 billion in the June 2009, draft BCA. In
addition, the December 2008 MAIS report also showed that the 2007 lifecycle cost was
stated as $1.7 billion.

Although the comments indicate that congressional staffers were aware of the changes to
the DIMHRS program, there was no written submission to congressional leaders on the
proposed increases as required in sections 2445c and 2445d, title 10, United States Code.
Section 2445c states that MAIS program managers are to submit quarterly reports to the
senior DOD official responsible for the program, identifying any variance in the
projected development schedule, implementation schedule, life-cycle costs, or key
performance parameters. In addition, Section 2445d directs the responsible senior DOD
officials to submit written reports to Congress when such variances occur. The April 7,
2009, letter is a schedule change. The August 31, 2009, letter is a redistribution of
$78.8 million to the Military Services and addresses only FY 2010 funding needs and not
$16.1 billion lifecycle costs. Therefore, BTA still needs to report to Congress on the
change in lifecycle cost.




                                         15


                               FOR OFFICIAL USE ONLY


   		 Ensure that the revised Business Case Analysis detail and fairly represent the
       variable costs associated with each alternative.

Director, Acquisition Resources and Analysis Comments
The Director partially agreed and stated that because of the short timeframe for
developing the draft business case, it represents a thorough review of all the costs
including variable costs, costs for DFAS, data warehouses, and hardware associated with
each alternative based on the available information. The Military Services must submit
acquisition strategies that fully justify service cost positions to support forthcoming
acquisition decisions to the milestone decision authority by March 30, 2010.

Our Response
We consider the comments partially responsive and agree that because of the short
timeframe the BCA included the cost information available at that time. However,
USD(AT&L) should not have made a decision of this magnitude without a detailed cost
estimate and acquisition strategy.

   		 Delay implementing COA 3C until final costs and analysis is completed and
       independently verified.

Director, Acquisition Resources and Analysis Comments
The Director disagreed and stated that delivery of the final BCA was already delayed by
senior DOD decision makers to ensure that the analysis and information is complete as
possible. The comments stated that the business case team agreed that cost differences
were not the determining factor for selecting the course of action. Costs for the
individual personnel and pay services would be scrutinized as part of the acquisition
process. In addition, the Director stated that selection of COA 3C was based on
government risk, technical complexity, technical risk and past performance of the
original DIMHRS program, and that capabilities needed by the Department are best
served by the Service-level individual personnel and pay systems using the DIMHRS
Core IT Investment to the maximum extent practical. Further, the comments indicated
that the individual personnel and pay system risk factors were high, but the option chosen
was believed to be the way for achieving the requirements of the Operational
Requirements Document.

Our Response
We consider the comments non-responsive. We acknowledge that USD(AT&L) has
already made the decision to implement Service-level individual personnel and pay
systems. However, the comments provided no new supplementary information to
support the September ADM assertion that the selected alternative is the way forward for
DIMHRS. Cost should be considered as a determining factor for selecting the way
forward for DIMHRS because there is such a significant increase in the prior estimated
cost from $1.7 billion to $16.1 billion for the development of four separate Service-level
individual personnel and pay systems instead of one.


                                         16


                               FOR OFFICIAL USE ONLY


The September ADM did not include any oversight and governance other than
establishing a Joint Enterprise Change Management Board for ensuring that the four
separate systems would be integrated and use the Core IT investment to the maximum
extent practical. The draft BCA eliminated COA 1 because of the difficulty in defining
and controlling requirements and in managing and governing the centralized program.
With four separate developmental efforts (DOD warehouse, and separate Army, Navy
and Air Force systems), even more oversight and governance is required to ensure that
DOD-wide personnel, finance, and enterprise functional requirements, data, and
information standards are met. It is unclear how four separate pay systems would reduce
delays and errors in pay, the need for reconciling and correcting data, losses due to
overpayments, and costs to recoup overpayments. It appears that in this case, DOD has
abandoned an integrated enterprise-wide system concept and advocates each Service to
develop its own pay system. Governance and management oversight will need to play a
key role in managing the development of four separate personnel and pay systems.

Management Comments Required
We request that the USD(AT&L) reconsider the position established by the Director,
Acquisition Resources and Analysis and respond to the final report.




                                        17


                              FOR OFFICIAL USE ONLY


Appendix A. Scope and Methodology
We conducted this audit from December 2008 through November 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions, based on our audit objectives.

This report is the first in a series on the Investment Review Board process. We
conducted this portion of our performance audit from December 2008 through
September 2009, in conjunction with our ongoing audit of the DOD Investment Review
Process (DOD IG Project No. D2009-D000FB-0082.000). Our objectives for the audit
were to determine whether the IRBs and DBSMC coordinated with Defense business
system modernization initiatives to eliminate conflicts and duplication of effort and
ensured proper allocation of funds.

We audited seven separate funding investments for $1.4 billion that the IRBs certified
and the DBSMC approved in FY 2006, FY 2007, and FY 2008. In FY 2008, the
DBSMC approved an additional $136.77 million investment for DIMHRS. Since 2003,
DOD has spent approximately $800 million on developing DIMHRS. Therefore, we
reviewed the following documentation—including lifecycle costs—that may have had an
affect on the future of DIMHRS.

      DIMHRS Operational Requirements Document, July 2001
      Joint Requirements Oversight Council guidance memo, November 2008
      ERAM findings, December 2008
      Memorandum from Under Secretary of Defense for Personnel and Readiness on
       his opinion of the four options, January 12, 2009
      Deputy Secretary of Defense Memorandum, January 16, 2009
      DIMHRS Critical Change Process briefing charts, February 25, 2009
      ADM issued April 7, 2009
      DIMHRS Core/Army System Acceptance Test (SAT) Test Report, May 14, 2009
      Business Case Analysis briefing charts, May 26, 2009
      DIMHRS Core IT Investment O-8 Steering Group briefing charts, June 19, 2009
      Draft Business Case Analysis, June 24, 2009
      ADM issued September 8, 2009

We interviewed the following individuals from the DIMHRS Enterprise Program
Management Office in New Orleans, Louisiana:

      Program Manager
      Deputy Program Manager
      Acquisition Manager


                                       18


                             FOR OFFICIAL USE ONLY


       System Engineers 

       Configuration Management 

       Lead Engineer from Northrop Grumman 


We also interviewed personnel from the following:

       Air Force Cost Analysis Agency 

       Business Case Analysis Team 

       Chair, Human Resources Management Investment Review Board 

       Director, Acquisition Resources and Analysis 

       ERAM Team



Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
We found no prior coverage on the DIMHRS Business Case Analysis during the last
5 years.




                                        19


                              FOR OFFICIAL USE ONLY


Appendix B. Acquisition Decision 

Memorandum, September 8, 2009 





                        20


              FOR OFFICIAL USE ONLY


          21


FOR OFFICIAL USE ONLY


          22


FOR OFFICIAL USE ONLY


          23


FOR OFFICIAL USE ONLY


          24


FOR OFFICIAL USE ONLY


Appendix C. Deputy Secretary of Defense
Memorandum, January 16, 2009


                              DEPUTY SECRETARY OF DEFENSE
                                  1010 DEFENSE PENTAGON
                                 WASHINGTON. DC 20301·1010



                                                                              JAN 1 6 1009
    MEMORANDUM FOR SECRETARlES OF TIffi MILITARY DEPARTMENTS
                              CHAIRMAN OF THE JOINT CHIEFS OF STAFF
                              UNDER SECRETARIES OF DEFENSE
                               DEPUTY CHIEF MANAGEMENT OFFICER
                               ASSISTANT SECRETARY OF DEFENSE FOR
                                  LEGISLATIVE AFFAIRS
                               ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS
                                  AND INFORMATION INTEGRATION I DOD CIO
                               DlRECTOR, ADMINlSTRATION AND MANAGEMENT
                               DIRECTOR, PROGRAM ANALYSIS AND EVALVA TION
                               DIRECTORS OF THE DEFENSE AGENCIES


    SUBJECT: Defense Integrated Military Human Resources System (D1MHRS) Program


           The Department of Defense has been modernizing its business capabilities in
    support of me management of military personnel and pay under the DIMHRS program.
    This effort has been pursued as a single enterprise-wide system targeted to field a
    common      solution for all DoD military members.


           In November 2008, I directed a review of me program to gain a more
    comprehensive understanding of the slalus of this important initiative, as well as to
    understand the key risks that are being encountered during the development process. The
    assessment highlighted a number of governance, program management, and requirements
    related challenges associated with an effort that is as large and complex as DIMHRS.
    Subsequent to this review, r directed a follow-on effort to provide a list of options to
    consider how best to proceed with delivering this core capability to our military,
    including but not limited to the current course of action.


           Based on the options presented and the understanding of the challenges associated
    with this large undertaking, I have detennined that the Department will be bener
    positioned to deliver these important capabilities by leveraging the extensive effort that
    has been delivered to date, but also providing additional flexibility and management
    control over the solution at the individual military department level. To this end, I am
    directing the following actions:


           •	    The military departments, inclUding Active, Guard and Reserve Components,
                with the support of the Business Transfonnation Agency (BTA), OUSD(P&R)




                                          25


                                FOR OFFICIAL USE ONLY


           and the Defense Finance and Accounting Service        (OFAS), will confirm the
           "core" enterprise requirements of the current solution, which will primarily be
           restricted to those common data and process elements that are required to
           achieve timely and accurate military pay.
      •    Once    confirmed, and to the degree that is agreed to by the military
           departments, the BTA will complete the development of the "core" solution.
      •    Once the "core" is deemed complete by the military departments, the enterprise
           portion of the DIMHRS program will be concluded, at which time the solution
           as   configured and associated documentation will be transitioned to the
           individual military departments.
      •    The military departments will stand up their own senior governance boards and
           acquisition program offices to oversee, build out and deploy their own required
           personnel and pay capabilities using this "core" to the maximum extent
           practical.
       •   The Department of the Navy must comply with the requirements of the NDAA
           2007, Section 324, which imposed additional restrictions on pursuing avenues
           to expand the use of the Marine Corps Total Force System (MCTFS) as its
           solution to Navy-wide military personnel and pay or seek congressional relief.
      •    To meet the Department's requirements for enterprise-level information
           visibility to support the needs of OSD and the Combatant Commands, the
           enterprise will continue to manage the delivery of these information
           capabilities under the leadership of the Office of the Deputy Chief
           Management Officer (DCMO). This will include establishing an enterprise­
           level information warehouse and the necessary functional and technical
           requirements to enable the delivery of this capability in close coordination with
           the delivery of the personnel and pay transaction systems by the individual
           military departments.
       •   The military departments will work with the USD(AT&L) and BTA to
           coordinate on all acquisition activities, to include transition of program
           management responsibitities, that need to be made to accommodate this
           modified approach to delivering these personnel and pay capabilities.
      •    The military departments will identify an accountable 3-star generaVtlag
           officer to represent them in any ongoing enterprise-level governance activities.
      •    OSD(Comptroller) will support the BTA in facilitating any
           funding/reprogramming actions necessary to implement this revised approach,
           as   well   as   to address current FY09 funding shortfalls in the DIMHRS program.


      It is imperative that the Department field enhanced capabilities to deliver timely
and accurate pay to our men and women in uniform, as well as provide the broader DoD
enterprise with effective access to information about our military personnel. That




                                                   

                                                                   

requirement has not changed. However, I believe thai this revised approach to delivering
that solution, which leverages the significant work perfonned by the DlMHRS program
to date, but provide the military depanments more flexibility and control in the final
delivery of the solution, s!gnificantly increases the probability of success.




                                    27

                          FOR OFFICIAL USE ONLY

Glossary

Acquisition Decision Memorandum (ADM). An Acquisition Decision Memorandum is
a memorandum signed by the Milestone Decision Authority that documents decisions
made as the result of a Milestone Decision Review or other decisions such as funding.
The USD(AT&L) signed the acquisition decision memorandum on April 7, 2009. It
provided guidance on the four Options and defined requirements that the BCA team and
the Services needed to complete by June 30, 2009.
Business Case Analysis (BCA). A Business Case Analysis provides a best-value
analysis that considers not only cost, but also other quantifiable and non-quantifiable
factors supporting an investment decision. A business case analysis can include, but is
not limited to, performance, reliability, maintainability, and supportability
enhancements.
Common Core. The DIMHRS Core IT Investment is the “core” set of enterprise
requirements of the current DIMHRS solution, which are primarily restricted to those
common data and process elements that are required to achieve timely and accurate
military pay. It is critical to understand that these “core” elements are not an operational
capability and do not make up single integrated business processes that can be tested
through rigorous integration but are instead independent discrete and marginally
connected “chunks” of functionality that are not necessarily proven to work as fully
integrated processes. The delivery of the DIMHRS Core IT Investment is intended to
provide the foundation for a common platform that enables Service implementation of
processes.
Commercial-Off-The-Shelf. Commercial-off-the-shelf is a term for products that are
ready-made and available for sale, lease, or license to the public, in this case for software
or hardware, generally technology or computer products. These can be alternatives to
in-house developments. Many government and business programs are mandating the use
of commercial-off-the-shelf products, as they may offer significant savings in
procurement and maintenance.
Data Warehouse. A data warehouse is a repository of electronically stored data. Data
warehouses are used as sources for data management, data reporting, and analysis.
Enterprise Risk Assessment Methodology (ERAM). ERAM is a proactive and
independent risk assessment process that BTA used to reduce systemic risk and to
support informed decision-making. It focuses on delivering business capabilities rapidly,
reducing system development costs, identifying program vulnerabilities, and assisting in
developing mitigation solutions. ERAM addresses risks across seven dimensions: scope,
people, strategy, technology, contracting, process, and external factors. BTA developed
the ERAM to assess project risk for systems development efforts.
Initial Operational Capability. In general, initial operational capability is attained
when some units or organizations in the force structure that are scheduled to receive a
system 1) have received it, and 2) have the ability to employ and maintain it.

                                          28


                                FOR OFFICIAL USE ONLY


Investment Review Board (IRB). DOD has five distinct Investment Review Boards,
each dedicated to a particular functional area: Human Resources, Finance, Real Property
and Logistics, Weapons, and Information Management. Each Investment Review Board
is a forum that reviews Defense business system modernization funding requests. For
DIMHRS, the Human Resource Management Investment Review Board certifies funding
requests to the Under Secretary of Defense for Personnel and Readiness. The Defense
Business Systems Management Committee approves the funding requests.
Legacy System. A legacy system refers to an outdated computer system or application
program that is still in use, typically because it still functions for the users' needs, even
though newer technology is available.
Major Automated Information System (MAIS). Section 2445b, title 10, United States
Code states that MAIS is a DOD acquisition program for an Automated Information
System3 (either as a product or as a service) that is either designated by the milestone
decision authority as a MAIS or is estimated to exceed:
   		 $32 million in FY 2000 constant dollars for all expenditures, for all increments,
       regardless of the appropriation or fund source, directly related to the automated
       information system definition, design, development, and deployment, and
       incurred in any single fiscal year; or
   		 $126 million in FY 2000 constant dollars for all expenditures, for all increments,
       regardless of the appropriation or fund source, directly related to the automated
       information system definition, design, development, and deployment, and
       incurred from the beginning of the Materiel Solution Analysis Phase through
       deployment at all sites; or
   		 $378 million in FY 2000 constant dollars for all expenditures, for all increments,
       regardless of the appropriation or fund source, directly related to the automated
       information system definition, design, development, deployment, operations and
       maintenance, and incurred from the beginning of the Materiel Solution Analysis
       Phase through sustainment for the estimated useful life of the system.

Operational Requirements Document. An Operational Requirements Document is a
practical and useful document for managers that are responsible for defining system
capabilities needed to satisfy a mission need.




                                          29


                                FOR OFFICIAL USE ONLY

Director, Acquisition Resources and Analysis
Comments




                         30


               FOR OFFICIAL USE ONLY


          31


FOR OFFICIAL USE ONLY


          32


FOR OFFICIAL USE ONLY


          33


FOR OFFICIAL USE ONLY


          34


FOR OFFICIAL USE ONLY


FOR OFFICIAL USE ONLY


